App. 1

APPENDIX TABLE OF CONTENTS
Appendix A: DCA PCA Ruling.

2

Appendix B: DCA Denial for Written Opinion,...7
Appendix C: DCA Denial to Cert. Question

8

Appendix D: Family Court Order (Edu & Med)...9
Appendix E: Family Order (Temp Att. Fees).... 23
Appendix F: Florida Supreme Court Dismissal for
25
Lack of Jurisdiction (Appeal #1)
Appendix G: Florida Supreme Court Dismissal
For Lack Of Jurisdiction (Appeal #2)................ 27
Appendix H: Constitutional and Statutory
Provisions............................................................. 29

App. 2
APPENDIX A

IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
Not Final Until Time Expires To
File Motion For Rehearing And
Disposition Thereof If Filed
Case No. 5D20-1188
CHERI LYNNE MELCHIONE,
Appellant,
v.
TIMOTHY TEMPLE,
Appellee.

/ Decision filed October 9, 2020
Nonfinal Appeal from the Circuit Court for Orange
County,
Julie H. O'Kane, Judge.
Jessica Ann Travis, of Jessica Travis, P.A., Orlando,
for Appellant.
Hal Roen, of Hal Roen, P.A., Maitland, for Appellee.

App. 3

PER CURIAM.
AFFIRMED.

EVANDER, C.J., and TRAVER, J., concur.
LAMBERT, J., concurs with opinion.

LAMBERT, J., concurring with opinion.
5D20-1188
In this appeal, Appellant raises three arguments for
reversal of certain post-final- judgment orders
entered by the trial court in a paternity action. I
write briefly to address Appellant’s third argument
that the trial court erred in denying her motion for
an award of temporary attorney’s fees brought under
section 742.045, Florida Statutes (2018).
The trial court denied the motion “without prejudice”
because Appellant was not represented by counsel at
the time of the hearing, but it provided that
Appellant could refile the motion “once she obtains
legal representation.” In my view, the trial court
erred in apparently determining that, as a matter of
law, a party must be represented by counsel as a
prerequisite to seeking an award of temporary
attorney’s fees under section 742.045. A similar issue

App. 4
was raised in Perlow v. Berg-Perlow, 875 So. 2d 383
(Fla. 2004).
There, the husband in a dissolution of marriage
proceeding had moved for temporary attorney’s fees
under section 61.16, Florida Statutes. Id. at 384. At
the hearing held on the motion, the husband was
unrepresented, testifying that he did not have the
financial resources to hire counsel. Id. The trial court
denied the husband’s motion without prejudice to
him refiling the motion after obtaining counsel, id. at
385, and later entered a final judgment from which
the husband unsuccessfully appealed. Id. at 386
(citing Perlow
v. Berg-Perlow, 816 So. 2d 210 (Fla. 4th DCA 2002)).
The husband thereafter sought review in the Florida
Supreme Court. Id. at 383.
Because the Court reversed the final judgment for a
new trial on other grounds, it chose not to address
the separate issue raised by the husband regarding
the denial of his motion for temporary attorney’s
fees. Id. at 390 n.6. However, in his concurring
opinion, Justice Lewis specifically discussed whether
a party must retain counsel as a
2

prerequisite to seeking temporary attorney’s fees,
opining that “[t]he ruling of the trial court requiring
[the husband] to first secure counsel prior to
awarding fees constituted a legal error, and was not

App. 5
a matter within the court’s discretion.” Id. at 401
(Lewis, J., concurring). Justice Lewis observed that it
was clear that the Legislature intended under
section 61.16 for a party to be able to obtain a
determination as to whether he or she is entitled to
fees and costs without first retaining an attorney, id.,
reasoning that “[a] person who asserts that he or she
cannot afford counsel cannot be expected to employ
counsel as a condition precedent to be eligible to
request funds to pay the necessary fees and costs.”
Id. at 402; cf. Nichols v. Nichols, 519 So. 2d 620, 621
(Fla. 1988) (concluding that denying a spouse’s
motion for temporary attorney’s fees solely because
the spouse was represented by counsel at the hearing
was unacceptable because it “would mean that the
requesting spouse as a matter of sheer formality
must appear pro se in order to be entitled to
temporary attorney fees”).
I agree with Justice Lewis’s analysis. Although
Perlow involved a motion for temporary attorney’s
fees brought under section 61.16 and Appellant’s
motion here is brought under section 742.045, both
statutes contain the following identical language:
The court may from time to time, after considering
the financial resources of both parties, order a party
to pay a reasonable amount for attorney’s fees, suit
money, and the cost to the other party of maintaining
or defending any proceeding under this chapter,
including enforcement and modification proceedings .
. . . An application for attorney’s fees, suit money, or

App. 6
costs, whether temporary or otherwise, shall not
require corroborating expert testimony in order to
support an award under this chapter.
§§ 61.16(1), 742.045, Fla. Stat. (2018). Nowhere
within section 742.045 is there the requirement that
a party must first retain counsel before a trial court
determines, at the
3

very least, entitlement to an award of temporary
attorney’s fees in a chapter 742 proceeding.
Nevertheless, I concur in affirming the order.
Appellant is now being represented by counsel. The
trial court’s order denying her motion without
prejudice allows her to seek again an award of
temporary attorney’s fees 'for the present
enforcement proceedings below. According to the
briefs filed here, Appellant is apparently pursuing an
award of temporary attorney’s fees in the trial court.
As such, there appears to be no present harmful
error.
Lastly, I concur in the summary affirmance of the
other two orders under review.

App. 7.
APPENDIX B
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA - FIFTH DISTRICT
CASE NO.

5D20-1188

CHERI LYNNE MELCHIONE,
Appellant,
V.
TIMOTHY TEMPLE,
Appellee.
DATE:

November 06, 2020

BY ORDER OF THE COURT:
ORDERED that Appellant's Motion for Issuance of
Opinion,
Rehearing and for Rehearing En Banc,
filed October 23, 2020, is denied.
I hereby certify that the foregoing is
(a true copy of) the original Court order.
SAN'DRA 8. WfLLIAMSl CLERK
Panel: Judges Evander, Lambert, and Traver (acting
on panel-directed motion(s)) En Banc Court (acting
on en bane motion)
cc:
Hal L. Roen Jessica Ann Travis
Cheri Lynne Melchione

r

App. 8
APPENDIX C
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
CASE NO. 5D20-1188
CHERI LYNNE MELCHIONE,
Appellant,
V.
TIMOTHY TEMPLE,
Appellee .
DATE: December 04, 2020
BY ORDER OF THE COURT:
ORDERED that Appellant's "Amended Request for
Certification of Question Rehearing En Banc of
Denial... ," filed November 17, 2020, is stricken as
unauthorized.
I hereby certify that the foregoing is
(a true copy of) the original Court order.
Panel: Judges Evander, Lambert, and Traver
cc:

Hal L. Roen Jessica Ann Travis
Cheri Lynne Melchione

App. 9
APPENDIX D
Filing# 106720172 E-Filed 04/27/2020 11:08:49 AM
IN THE CIRCUIT COURT OF THE NINTH
JUDICIAL CIRCUIT IN AND FOR ORANGE
COUNTY, FLORIDA
CASE NO.: 2004-DR-1613-0 DIVISION: 47
CHERI LYNNE MELCHIONE,
Petitioner/Mother,
and
TIMOTHY TEMPLE,
Respondent/Father.

ORDER GRANTING IN PART MOTHER’S MOTION
TO COMPEL PAYMENT OF MEDICAL EXPENSES
AND EDUCATIONAL AND ACTIVITIES FEES
THIS MATTER came on for hearing on the Mother's
prose Motion to Compel Payment of Medical
Expenses and Educational and Activities Fees filed
March 30, 2018 (hereafter " Motion to Compel").
Having reviewed the pleadings, having heard
testimony from Petitioner and Respondent, having
reviewed the exhibits in evidence and being duly
advised in the premises, the Court determines as
follows:

App. 10
The parties are the parents of K.L.M. whose
1.
date of birth is October 2, 2003.
On June 7, 2004, the court issued its Final
Judgment
ratifying
the
parties'
Paternity
Agreement. The Paternity Agreement required the
Mother to provide health insurance for the minor
child. It required the Father to reimburse the Mother
for all medical, dental and hospitalization expenses
not covered by insurance until the Mother obtained
full time employment. Once she obtained
employment, the parties agreed to exchange financial
affidavits for the purpose of recalculating their
respective shares of said uncovered medical
expenses. See, Paternity Agreement, 17, filed June 7,
2004.
2.

The parties entered into an Updated Paternity
Agreement on February 17, 2008.
3.

Pursuant to this agreement, the Father was required
to provide medical insurance for the minor child at
his discretion or when requested by the Mother. If
the Father did not provide medical insurance, then
he assumed all responsibility for the minor child's
medical debt. The Father was also responsible for
payment of all uninsured medical expenses. See,
Update Paternity Agreement,

App. 11
As part of the Update Paternity Agreement,
4.
the parties acknowledged that the minor child may
have special needs for her education. The Father
agreed to contribute approximately
$500.00 per month to be used only for private school
tuition or supplementary activities such as music,
art, and sports. Payment was to be made only when
"actually used or when reimbursement should be
provided." The Mother had the sole discretion to
choose the minor child's pre-college schools. See,
Updated Paternity Agreement, '1]9.
On September 7, 2015, the Court issued its
5.
Supplemental Final Judgment of Paternity in this
matter ratifying the parties Updated Paternity
Agreement.
On October 2, 2017, the Father filed his
Motion to Receive Credit for Monies paid to
Petitioner above Child Support and Against
Petitioner's Claim for Uncovered Medical Expense,
Private School Tuition and College Fund
Contributions (hereafter "Motion to Receive Credit").
A hearing was held on December 7, 2017 on this
motion as well as the Mother's Verified Motion for
Contempt filed December 11, 2015. At that hearing,
the court received into evidence as Petitioner's
exhibit 2 a large box of documents including medical
bills, receipts, cancelled checks, e-mails and bank
statements. The Mother testified that those
documents supported the unreimbursed medical and
6.

App. 12
educational expenses she incurred for the minor
child. Due to time constraints, the hearing was
rescheduled to April 2, 2018. The court ordered Roy
Smith, Esq., the Mother's attorney, to review the
documents submitted as exhibit 2 and prepare a list
of
2
2004-DR-1613-0
unreimbursed medical and educational expenses and
provide that list to the Father's attorney. See,
December 7, 2017 hearing transcript, pg. 73:4-74:12.
7.
On January 24, 2018, Mr. Smith withdrew
from representation of the Mother.
8.
On March 30, 2018, the Mother filed the
instant motion.
9.
On April 2, 2018, the parties again appeared
before the court on the Father's Motion to Receive
Credit. The Mother appeared without counsel. David
Roberts, Esq., represented the Father. At this
hearing, Mr. Roberts placed in evidence a
spreadsheet that summarized the voluminous
documents previously submitted as Petitioner's
Exhibit 2 at the December 17, 2017 hearing. See,
Respondent's Ex. I. That spreadsheet identified
$37,362.00
in
unreimbursed medical and
educational expenses. Of that amount, Mr. Roberts
confirmed that $18,716.16 of expenses were

App. 13
supported by source documents included within
Exhibit 2 and that the Father owed that sum to the
Mother. He identified expenses without source
documents by highlighting the entry with a yellow
highlighter. The highlighted expenses totaled
$18,538.36. See, April 2, 2018 hearing transcript, pg.
25:21 - 26:1.
10.
The Mother also presented the Court with her
spreadsheet, which was received as Petitioner's
Exhibit 3. That spreadsheet identified unreimbursed
medical and educational expenses in the total
amount of$40,696.49 for the time period from 2008
through 2017.
The court was unable to conclude the hearing
11.
on April 2, 2018. However based upon counsel's
acknowledgement, the court made a finding that
Respondent was responsible for $18,716.16 in
unreimbursed medical and educational expenses.
See, April 2, 2018 hearing transcript, pg. 30: 10-12;
32:13-14. The court further directed the Mother to
specifically identify a source document from Exhibit
2 that she believed supported the remaining
expenses in dispute.
3
2004-DR-1613-0

*>

V*"

App. 14
12.
On September 25, 2018, Steve Marsee, Esq.,
appeared in this matter on the Mother's behalf.,
13.
On October 24, 2018, Mr. Marsee and Mr.
Roberts appeared before this Court to obtain several
hours of hearing time. The court set a hearing for
December 3, 2018 and ordered the parties to
mediation.
14.
Mr. Marsee withdrew from his representation
of the Mother on November 13, 2018.
15.
The parties attended mediation on November
14, 2018 and reached an impasse on all issues.
16.
On November 29, 2018, Hal Roen, Esq.,
appeared in this action on the Father's behalf. Mr.
Roberts was permitted to withdraw on December 27,
2018, when the Court executed the Order of
Substitution of Counsel.
17.
Mr. Roen and the Mother appeared for a
hearing on December 3, 2018. Several motions were
set for hearing that day including the Father's
Motion for Credit and the Mother's Motion to
Compel. At that hearing, the Court heard brief
testimony from the Father. The Court received into
evidence
several
exhibits
related
to
the
unreimbursed medical and educational expenses.
However, because the Court and Mr. Roen were not
completely familiar with what occurred at the
December 7, 2018 and April 2, 2018 hearings, the

App. 15
Court ordered Mr. Roen to obtain transcripts of those
hearings and provide them to the Court.
The parties appeared before the Court on
18.
January 16, 2019 on the Father's Motion to Receive
Credit and the Mother's Motion to Compel. The
Court heard testimony from the parties and received
additional documents into evidence.
Transcripts of the December 7, 2018 and April
19.
2, 2018 hearings were provided to the Court in
February, 2019.
4
2004-DR-1613-0
20.
The issue before the Court is whether the
Mother is entitled to reimbursement from the Father
for medical and educational expenses she incurred on
the minor child's behalf and, if so, in what amount.
Clearly, the original Paternity Agreement and the
Updated Paternity Agreement required the Father to
pay for any uninsured medical expenses and pay up
to $500.00 per month for private school tuition or
supplemental educational activities.
21.
When the parties appeared before the Court in
December 2017 and April 2018, the only argument
made by the Father with regard to the unreimbursed
expenses was that the Mother had not provided
sufficient
documentation
to
support
the
expenditures. The Father never argued that the

App. 16
expenses identified on the spreadsheets were not
medical or educational expenses. However, once Mr.
Roen appeared on the Father's behalf in late 2018,
the Father changed his position and argued that
many of the expenses did not qualify as either
medical or educational expenses. The Mother
objected to this change in position as she was not
prepared to respond to it at the December 3, 2018
hearing. At the hearing in January, 2019, the Mother
provided additional background information to
support her position that all of the expenses were
properly incurred medical or educational expenses.
The facts of this case are unique in that the
Father has no relationship or communication with
the minor child for reasons that were not explained
by the parties. According to the Mother, the Father
has seen the child for no more than six hours in her
entire life. The Mother and the minor child live in
North Carolina and the Father lives in Central
Florida. The Father has no first-hand knowledge of
the child's medical and educational needs because he
does not interact with the minor child.
22.

The Mother sent numerous e-mails to the
Father concerning the child's medical and
educational needs. The minor child suffers from a
sensory processing disorder requiring
23.

s

App. 17
2004-DR-1613-0
specialized therapies such as occupational and
speech therapy. The Father did not want to pay for
medical insurance or expensive therapies for the
minor child.l On April 23, 2015, the Father executed
a Medical Authorization stating as follows:
The Father, Timothy Temple acknowledges that the
Mother, Cheri Melchione, had had up to this date
and should continue to have sole authority and full
medical authorization to determine and choose the
medical, dental, psychological and/or any other
related well-being care and treatment which may
include but is not limited to any alternative,
substitute, less expensive options, or other
supportive treatment and/or treatment plans that
the Mother determines is in the best interest of their
minor child, (REDACTED).
Ex. 1 to December 13, 2018 hearing. Consistent with
this agreement, the Mother arranged for alternative
therapies to keep the expenses to a minimum.
24.
The Father did not read most if not all of the
Mother's e-mails. He directed the Mother to send the
e-mails to his office manager or accountant as he did
not want to communicate with the Mother. The
Father never responded to the Mother's e-mails
objecting to any of the decisions she made with
regard to the minor child's medical or educational
needs. Other than cross examination of the Mother,
the Father did not provide any evidence to support

i

App. 18
his contention that the Mother's expenses were not
reasonable medical or educational expenses.
25.
The Court reviewed in detail the list of
medical expenses identified as Exhibit 2 to the
December 3, 2018 hearing as well as the source
materials presented by the Mother. Attached to this
Order as Exhibit I is an annotated copy of Exhibit 2.
The Court marked with the letter "A" all of the
entries that Mr. Roberts agreed were expenses
incurred by the Mother and owed by the Father.
The Father has another child from a different
relationship who is on the autism spectrum and
requires expensive treatment and therapy to address
his special needs.
6

2004-DR-l 61 3-0
The Mother has included in her spreadsheet
many expenses for which there was no evidence to
support that the expense was related to a medical
need of the child. For example, the family has a pet
dog that the Mother asserts is a therapy dog for the
minor child, yet no credible evidence was presented
to support this claim.
26.

Based upon the additional testimony and
evidence provided by the Mother, the Court marked
with the letter "B" the additional medical expenses
27.

App. 19
that should be reimbursed by the Father. The items
marked as "B" total $22,185.99.
The Court reviewed in detail the list of
educational expenses identified as Exhibit 3 to the
December 3, 2018 hearing as well as the source
materials presented by the Mother. The exhibit
breaks down the expenses into four categories: (I)
activities, supplies, classes; (2) educational travel
experiences; (3) Amazon educational; and (4)
Groupon educational, for a total of $1,249.00 in
expenses.
28.

29. Although the minor child has sensory
processing issues, she is very intelligent. The minor
child has attended several different schools as well
as being home-schooled by the Mother. Although the
Mother claims she expended over $60,000.00 in
educational expenses, she is only seeking
reimbursement of $500.00 per month from February,
2008 consistent with the Updated Paternity
Agreement.
30. A review of the Mother's spreadsheet of
educational expenses reveals that the Mother has
included nearly every single expense incurred with
regard to the child and lumped them under the
category of "educational fees." However, there was no
evidence presented by the Mother to explain how
these expenses were specifically related to the child's
educational needs as opposed to normal expenses
incurred by every parent of a school-aged child. With

App. 20
regard to "educational travel expenses," there was no
evidence presented by the Mother that these trips
were
7

2004-DR-1613-0
specifically required because of the minor child's
educational needs or whether they were simply a
planned family vacation.
31.
However, the Court does find that the
expenses listed as "Amazon educational" should be
reimbursed by the Father. The Mother's spreadsheet
identifies those expenses as text books and
educational software for the minor child, which
clearly would be related to the minor child's
education. These expenses total $1,381.00.
It is apparent from the Mother's testimony,
spreadsheets and other documents that she believes
nearly every expense related to the child falls under
the category of medical or educational expenses. The
Court does not interpret the parties' agreements as
broadly as the Mother.
32.

Based upon the foregoing, it is hereby ORDERED as
follows:

App. 21
1.
The Mother's Motion to Compel Payment of
Medical Expenses and Educational and Activities
Fees is granted in part.
2.
The Mother is entitled to reimbursement from
the Father in the sum of
$18,716.16 as previously ordered by the Court at the
April 2, 2018 hearing; (2) the sum of $22,185.99 in
additional unreimbursed medical expenses; and (3)
the sum of $1,381.00 in unreimbursed educational
expenses, for a total reimbursement of$42,283.15.
By order dated April 21, 2020, the Court gave
3.
the Father a credit of $37,500.00 against these
expenses. After the credit is applied, the Father owes
the Mother $4,783.15. The Father is ordered to make
payment to the Mother of$4,783.15 within 15 days of
the date of this Order.
8
2004-DR-1613-0
DONE AND ORDERED in Orlando, Orange County,
Florida this 27th day of April, 2020.

App. 22
Circuit Judge
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the foregoing was filed
with the Clerk of the Court this k day of April, 2020
by using the Florida Courts E-Filing Portal System.
Accordingly, a copy of the foregoing is being served
on this day to all attorney(s)/interested parties
identified on the ePortal
Electronic Service List, via transmission of Notices of
Electronic Filing generated by the ePortal System.

9
2004-DR-1613-0

App. 23
APPENDIX E
Filing# 106519523 E-Filed 04/21/2020 03:20:41 PM
IN THE CIRCUIT COURT OF THE NINTH
JUDICIAL CIRCUIT IN AND FOR ORANGE
COUNTY, FLORIDA
CASE NO.: 2004-DR-1613-0 DIVISION: 47
CHERI LYNNE MELCHIONE,
Petitioner/Mother,
and
TIMOTHY TEMPLE,
Respondent/Father.

ORDER DENYING MOTHER'S MOTION TO
AWARD TEMPORARY ATTORNEYS' FEES
WITHOUT PREJUDICE
THIS MATTER came on for hearing on January 16,
2019 on the Mother's prose Motion to Award
Temporary Attorney's Fees filed September 18, 2018,
and the Court having reviewed the pleadings and
being duly advised in the premises, it is hereby
ORDERED that the Mother's Motion to Award
Temporary Attorneys' Fees is denied. At the time of
the hearing, the Mother was not represented by

App. 24
counsel. This ruling is without prejudice to the
Mother refiling the motion once she obtains legal
representation.
DONE AND ORDERED in Orlando, Orange County,
Florida this..ti" day of April, 2020, nunc pro tune
January 16, 2019.

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the foregoing was filed
with the Clerk of the Court this )tf day of April, 2020
by using the Florida Courts E-Filing Portal System.
Accordingly, a copy of the foregoing is being served
on this day to all attomey(s)/interested parties
identified on the ePortal Electronic Service List, via
transmission of Notices of Electronic Filing
generated by the ePortal System.
Judicial Assistant

App. 25
APPENDIX F
Filing# 119562972 E-Filed 01/13/2021 02:10:34 PM

SUPREME COURT OF FLORIDA
TUESDAY, JANUARY 12, 2021
CASE NO.: SC20-1768
Lower Tribunal No(s).: 5D20-1188;
482004DR001613A0010X
CHERI LYNNE MELCHIONE
Petitioner(s)
vs.
TIMOTHY TEMPLE
Respondent(s)

This case is hereby dismissed. This Court lacks
jurisdiction to review an unelaborated decision from
a district court of appeal that is issued without
opinion or explanation or that merely cites to an
authority that is not a case pending review in, or
reversed or quashed by, this Court. See Wheeler v.
State, 296 So. 3d 895 (Fla. 2020); Wells v. State, 132
So. 3d 1110 (Fla. 2014); Jackson v. State, 926 So. 2d
1262 (Fla. 2006); Gandy v. State, 846 So. 2d 1141
(Fla. 2003); Stallworth v.

App. 26
Moore, 827 So. 2d 974 (Fla. 2002); Harrison v. Hyster
Co., 515 So. 2d 1279 (Fla. 1987); Dodi Publ’g Co. v.
Editorial Am. S.A., 385 So. 2d 1369 (Fla. 1980);
Jenkins v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be
entertained by the Court. Petitioner's Motion to
Continue Stay is hereby denied as moot.
A True Copy Test:
td
Served:
HAL L. ROEN
CHERI LYNNE MELCHIONE
HON. SANDRA B. WILLIAMS, CLERK
HON. TIFFANY MOORE RUSSELL, CLERK HON.
JULIE HIONS O'KANE, JUDGE

App. 27
APPENDIX G
Filing# 119935850 E-Filed 01/20/2021 03:22:04 PM
SUPREME COURT OF FLORIDA
WEDNESDAY, JANUARY 20, 2021
CASE NO.: SC20-1763
Lower Tribunal No(s).: 5D20-1188;
482004DR001613A0010X
CHERI LYNNE MELCHIONE
Petitioner(s)
vs.
TIMOTHY TEMPLE
Respondent(s)

This case is hereby dismissed. This Court lacks
jurisdiction to review an unelaborated decision from
a district court of appeal that is issued without
opinion or explanation or that merely cites to an
authority that is not a case pending review in, or
reversed or quashed by, this Court. See Wheeler v.
State, 296 So. 3d 895 (Fla. 2020); Wells v. State, 132
So. 3d 1110 (Fla. 2014); Jackson v. State, 926 So. 2d
1262 (Fla. 2006); Gandy v. State, 846 So. 2d 1141
(Fla. 2003); Stallworth v.

App. 28
Moore, 827 So. 2d 974 (Fla. 2002); Harrison v. Hyster
Co., 515 So. 2d 1279 (Fla. 1987); Dodi Publ’g Co. v.
Editorial Am. S.A., 385 So. 2d 1369 (Fla. 1980);
Jenkins v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be
entertained by the Court.
Petitioner's motion for enlargement of time for
jurisdiction brief is hereby denied as moot.

A True Copy Test:

td
Served:
HON. JULIE HIONS O'KANE, JUDGE
HAL L. ROEN
HON.

TIFFANY MOORE RUSSELL,
CHERI LYNNE MELCHIONE

HON. SANDRA B. WILLIAMS, CLERK

CLERK

App. 29
APPENDIX H
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
FLORIDA LAWS AND FLORIDA CONSTITUTION
Mirror Laws: Florida Rule 9.030 and Florida
Constitution Article V (3) Florida Supreme Court
Has Jurisdiction Over A Case As Follows:
(a)

Jurisdiction of the Supreme Court of Florida.

(1)

Appeal Jurisdiction.

(A)

The supreme court shall review, by appeal:

(ii) decisions of district courts of appeal declaring
invalid a state statute or a provision of the state
constitution.
Discretionary Jurisdiction. The discretionary
(2)
jurisdiction of the supreme court may be sought to
review:
(A) decisions of district courts of appeal that:
(ii) expressly construe a provision of the state or
federal constitution
(iv) expressly and directly conflict with a decision of
another district court of appeal or of the supreme
court on the same question of law;

App. 30
FLORIDA CONSTITUTIONAL RIGHTS:ARTICLE 1
Fla. Const., Art. I, Sec. 2, Basic Rights - All natural
persons, female and male alike, are equal before the
law and have inalienable rights, among which are
the right to enjoy and defend life and liberty, to
pursue happiness, to be rewarded for industry, and to
acquire, possess and protect property. No person shall
be deprived of any right because of race, religion,
national origin, or physical disability.
Fla. Const., Art. 1, Sec. 9. Due process. - No person
shall be deprived of life, liberty or property without
due process of law, or be twice put in jeopardy for the
same offense, or be compelled in any criminal matter
to be a witness against oneself.
Fla. Const., Art. I, Sec. 21. Access to courts. - The
courts shall be open to every person for redress of any
injury, and justice shall be administered. without
sale, denial or delay.
Florida Rules of Appellate Procedure 9.330:
2(a)(D) Motion for Written Opinion. A motion for
written opinion shall set forth the reasons that the
party believes that a written opinion would provide:
(i) a legitimate basis for supreme court review;
(d)
Exception; Review of District Court of Appeal
Decisions. No motion for rehearing or clarification
may be filed in the supreme court addressing:

App. 31
the dismissal of an appeal that attempts to
(1)
invoke the court’s mandatory jurisdiction under rule
9.030(a)(l)(A)(ii) when the appeal seeks to review a
decision of a district court of appeal decision without
opinion; or..
Florida Statutes Family Law Cases:
Florida Rule 742.045: Attorney’s fees, suit money, and
costs.—The court may from time to time, after
considering the financial resources of both parties,
order a party to pay a reasonable amount for
attorney’s fees, suit money, and the cost to the other
party of maintaining or defending any proceeding
under this chapter, including enforcement and
modification proceedings. An application for
attorney’s fees, suit money, or costs, whether
temporary or otherwise, shall not require
corroborating expert testimony in order to support an
award under this chapter.

U.S. CONSTITUTION:
Amend. I, U.S. Const., "to petition the Government
for a redress of grievances." Congress shall make no
law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the
freedom of speech, or of the press; or the right of the
people peaceably to assemble, and to petition the
Government for a redress of grievances

App. 32
Amend. VII, U.S. Const, trial by jury In Suits at
common law, where the value in controversy shall
exceed twenty dollars, the right of trial by jury shall
be preserved, and no fact tried by a jury, shall be
otherwise reexamined in any Court of the United
States, than according to the rules of the common
law.
Amend. XIV, sec 1, U.S. Const., due process All
persons born or naturalized in the United States and
subject to the jurisdiction thereof, are citizens of the
United States and of the State wherein they reside.
No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws.
Amend. V, U.S. Const., due process No person shall
be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a
Grand Jury, except in cases arising in the land or
naval forces, or in the Militia, when in actual service
in time of War or public danger; nor shall any person
be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for
public use, without just compensation.

App. 33
Article VI, U.S. Const.,..This Constitution, and the
laws of the United States which shall be made in
pursuance thereof; and all treaties made, or which
shall be made, under the authority of the United
States, shall be the supreme law of the land; and the
judges in every state shall be bound thereby, anything
in the Constitution or laws of any State to the
contrary notwithstanding.
The Senators and Representatives before mentioned,
and the members of the several state legislatures, and
all executive and judicial officers, both of the United
States and of the several states, shall be bound by
oath or affirmation, to support this Constitution; but
no religious test shall ever be required as a
qualification to any office or public trust under the
United States.

